NUMBER
In The
SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2020

STEVEN E. HILL, Petitioner,
v.

C.V. RIVERA, Respondent.

CERTIFICATE OF COMPLIANCE
Certificate of Compliance

Pursuant to United States Supreme Court Rule 33.1(h) I hereby
certify that the brief (petition) section of the petition for certiorari
(pages 1-14 inclusive) filed in the above action on behalf of petitioner
Steven E. Hill contains 3396 words.

Dated this 21st day of May, 2021

eacge f Lowrey
Arkansas Bar No. 2002153
Post Office Box 153
Sheridan, Arkansas 72150

(870) 329-4957
Facsimile No: (479) 222-1459

 

ATTORNEY FOR PETITIONER
STEVEN E. HILL
